                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number:         A09030019                                                               Page 1 of1




                Our inquiry detennined that an allegation of plagiarism in two NSF proposalsl submitted
        by the PI (subjecti appeared to be substantive, so we referred that investigation to the Institution3
         which concluded that the PI plagiarized materials. The Institution further concluded the
        subject's actions constituted research misconduct. We concurred with the Institution and
        recommended NSF make a finding of research misconduct, which it did.

                 This memo, the attached Report of Investigation, and the Deputy Director's decision
        letter constitute the case closeout. Accordingly, this case is closed.




NSF DIG Fonn 2 (11102)
                                     NATIONAL SCIENCE FOUNDATION
                                          4201 WILSON BOULEVARD
                                         ARLINGTON. VIRGINIA 22230




                                             JAN 1 3 2011

        OFFICE OF THE
       DEPUTY DIRECTOR




    CERTIFIED MAIL --RETURN RECEIPT REQUESTED

.




            Re:     Notice ofResearch Misconduct Determination


    Dear

            In 2006, you submitted a proposal to the National Science Foundation ('~SF") entitled,
                                                                                     ." In 2008,
     you submitted another proposal to NSF entitled,

           ." As documented in the attached Investigative Report prepared by NSF's Office of
     Inspector General ("OIG"), these proposals contained plagiarized material.

     Research Misconduct and Proposed Sanctions
              Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
    . or plagiarism in proposing or perfonning research funded byNSF ..." 45 CFR § 689.1(a). NSF
      defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
      without giving appropriate credit." 45 CFR § 689.I(a)(3). A finding of research misconduct
      requires that:

             (1) There be a 	significant departure from accepted practices of the relevant research
                 community; and
             (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
             (3) The allegation be proven by a preponderance of evidence.

     45 CFR § 689.2(c).
                                                                                              Page 2
        Your proposals contained verbatim and paraphrased text and figures, copied from several
source documents. By sUbmitting proposals to NSF that copied the ideas or words of another
without adequate attribution, as described in the OIG Investigative Report, you misrepresented
someone else's work as your own. Your conduct unquestionably constitutes plagiarism. I
therefore conclude that your actions meet the definition of "research misconduct" set forth in
NSF's regulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance ofthe
 evidence, your plagiarism was committed knowingly and constituted a significant departure from
accepted practices ofthe relevant research community. I am, therefore, issuing a finding of
 research misconduct against you.

        NSF's regulations establish three categories of actions (Group I, IT, and Ill) that can be
taken in response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include
issuing a lytter of reprimand~ conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities from NSF; and requiring that an institutional representative certify as to the accuracy of
reports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(1).
Group IT actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CFR § 689.3(a)(2). Group ill actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

       In determining the severity ofthe sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, and our determination that it was committed
knowingly. I have also considered the fact that your misconduct was part of a pattern, and had no
impact on the research record, as well as other relevant circumstances. 45 CFR § 689 .3(b).

       After assessing the relevant facts and circumstances of this case, I am taking the
following actions against you:

        (1) Until January 1, 2013, you must provide certifications to the OIG that any proposal or
            report you submit to NSF as a PI or co-PI does not contam plagiarized, falsified, or
            fabricated material;

        (2) Until January 1, 2013, you must obtain, and provide to the OIG, assurances from a
            responsible official of your employer that any proposal or report you submit to NSF as
            a PI or co-PI does not contain plagiarized, falsified, or fabricated material; and

        (3) By January 1,2012, you must attend a training course in research ethics, and provide
            a certificate of attendance to the OIG that you have completed such a course.
                                                                                            Page 3
       The certifications, assurances, and certificate of attendance should be submitted in writing
to OrG, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
Virginia 22230.



Procedures Governing Appeals
        Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 CFR § 689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. Ifwe do not receive your appeal within the 30-day period, this
decision will become final.

       For your information, we are attaching a copy of the applicable regulations. If you have
any questions about the foregoing, please call             Assistant General Counsel, at (703)
292-8060.



                                                     Sincerely,




                                                     Cora B. Marrett
                                                     Acting Deputy Director




Enclosures
   Investigative Report
- 45 C.F.R. Part 689




    -_......-
CbNFIDENTIAL                                                                                Q)NF1DENTIAL




        National Science Foundation
        Office of Inspector General




                          Confidential
                     Report of Investigation
                    Case NUIIlber A09030019
                      September 15, 2010

  'This <bNFIDENIlALDRAFT REPQRT .of INVESTIGATION is lent t.o you FOR OFFIaAL USE ONLY.
           It remains the property.of the Office .ofInspect.orGenernl It mayn.ot be reproduced .
   It may be disclosed .outside NSF .only by the Inspect.or General under the Freed.om .of Inf.onnation and
                                     Privacy Acts, 5 US.C §§ 552, 552a.

NSF orG Fonn 22a (1/03)
CDNFIDENTIAL 	                                                                      CDNFIDENTIAL


                                         Executive Summary

Allegation:      Plagiarism

OIG Inquiry:
         • 	 Two unfunded NSF proposals contained text and figures copied from multiple
             source documents.
         • 	 We referred the allegation to the Subject's Institution for investigation.

Institution Inquiry and Actions:

         • 	 The Institution's inquiry determined the Subject, as the PIon the NSF proposals,
             was responsible for the copied text and figures, which he admitted.
         • 	 Based on its inquiry, the Institution concluded the Subject engaged in research
             misconduct and acted intentionally when he plagiarized the text and figures in the
             NSF proposals.
         • Consequently, the Institution reprimanded the Subject.
OIG Assessment:
       We concur with the Institution that the Subject plagiarized text and figures into two NSF
       proposals.
       The Act: The Subject plagiarized a total of 77 lines of text and 6 figures into two NSF
       proposals.
       Intent: We determined that the Subject acted knowingly.
       Standard of Proof: The preponderance of the evidence supports the'conclusion that the
       Subject knowingly plagiarized these materials into his NSF proposals.
       Significant Departure: We conclude the Subject's copying represents a significant
       departure from community standards.
       Pattern: The subject's submission of2 proposals, over a period of two years, to NSF
       containing plagiarized materials suggests that his actions were a part of a pattern.
    OIG Recommendations:
         • 	 Send a letter of reprimand to the Subject informing him that NSF has made a
             finding of research misconduct;

              • 	 Require the Subject to certify any proposals he submits to NSF for a period of 2
                  years contain no plagiarized, falsified, or fabricated material;

              • 	 Require the Subject to submit assurances by a responsible official of his employer
                  that any proposals submitted by the Subject to NSF do not contain plagiarized,
                  falsified, or fabricated material for 2 years;

              • 	 Direct the Subject to provide verification of his completion of the ethics course
                  within 1 year.


                                                  1
CoNFIDENTIAL                                                                       CoNFIDENTIAL




                                                OIG's Inquiry

Our analysis of two NSF proposals/ Proposal I, submitted by the PI and co-PI, and Proposal 2,
submitted by the PI, revealed approximately 77lines of text and 6 figures apparently copied from
7 source documents. 2 We initiated our inquiry by writing to the PI (Subject) to ask about the
copied text contained in the proposals (Tab A).

After reviewing the PI's 3 responses (Tab A), it appeared that he was the individual responsible
for copying the text and figures into both proposals. In the Subject's response, he stated:

       To summarize, yes, in some cases we did copied [sic] materials from the source
       documents, because of my mistake in overlooking the technical background
       materials students' helped under time pressure, and I sincerely apologize for the
       error. Some cases we did not copy from the source materials but either due to
       missing references during copying from previous proposals or from the residual
       clause. Sometimes for the figure captions, the technical nature determined that the
       description of plots or images have to be very similarly paraphrased. [4]

Since the Subject's responses did not dispel the allegation, we determined there was sufficient
substance to warrant an investigation, and referred the investigation to the Subject's
Institution (Tab B).
                                        Institution's Inquiry

The Institution, following its Policy,S initiated an inquiry. The Inquiry Committee, concentrating
on the two NSF proposals, found

        the nature and extent of the plagiarism was surprisingly blatant and goes well
        beyond simple careless behavior. Our inquiry has been made straightforward
        because [the Subject] has forthrightly admitted to the allegations. We feel he is
        ashamed and remorseful. [6]

Further, the Committee concluded the co-PIon Proposal 1 was not responsible for the
plagiarized materials. Therefore, he was not interviewed.




3_
as the sole PI.
2


4
5
 Source documents include one web page and 6 online publications.

  Tab A Response letter to NSF (DW) - 1.
  Tab C Institution Policy and Procedures.
6 Tab D Institution's Inquiry Report, page 1.




                                                      2
CoNFIDENTIAL                                                                        CoNFIDENTIAL


During the inquiry, the Subject initially indicated

        that a previous post-doctoral scholar7   •••   had provided much of the introductory
        background literature. [8]

The Committee explored the idea that the Subject may not have understood that some of the
material the student provided was copied from the literature. However, after the Subject
reviewed the documents related to the preparations of the proposals, he

        retracted his statement regarding the involvement of students and [the post doc] in
        particular ... and indicated that he was' ...confused with my memories and made
                 .
        very senous     . takes.... [9]
                      mlS

The Subject assumed total responsibility for the plagiarized text. The Subject also provided the
Committee with documentation that showed several of the copied paragraphs in Proposal 1 were
used in his earlier NSF proposal. lO

The Committee determined that, although the Subject indicated he was

        under extreme pressure to complete several proposals at once which lead to his
        carelessness, it is clear he knew that sections were plagiarized, and yet he
        knowingly submitted the proposals.l ll ]

The Committee characterized the Subject's misconduct as "intentional plagiarism.,,12 The
Committee further stated:

        it appears that the prose and figures involved were simply copied as a matter of
        expediency, .and that such a transgression was not taken seriously because the
        material only appeared as general background material and did not substantially
        affect the proposed new research. Any such rationale is not acceptable as an
        excuse. 13

The Committee, after checking additional recent papers published by the Subject for plagiarism
and finding none, concluded that: the evidence was well documented; the Subject did not
dispute the plagiarism; and the Subject accepted full responsibility; therefore, research
misconduct occurred and that it was not necessary to conduct any further formal investigation. It




   Tab D, Institution Inquiry Report, page 2.
12 Ibid.
13 Ibid.




                                                   3
CoNFIDENTIAL                                                                                       CoNFIDENTIAL


recommended a letter of reprimand be sent to the Subject and that it remain permanently in his
personnel file.

The Institution's adjudicator 14 agreed with the Committee's findings and conclusionY The
adjudicator also agreed with the recommendation and sent the Subject a letter of reprimand that
was made part of his confidential, personnel file.

                                                 DIG's Assessment

Upon receiving the Report, we wrote the Subject informing him of our independent investigation
and asked if he had additional comments concerning the Report. 16 The subject explained that he
had provided all his comments to the Institution, which OIG had received as part of the Report. 17

We evaluated the Report and concluded the Committee was thorough in assessing the evidence
presented in the Report and appeared to be fair in its evaluation. We concluded the Report was
accurate and complete, and we could use it in lieu of conducting our own investigation. We
discuss our conclusions below.

NSF's Research Misconduct Regulation states that a finding ofmisconduct requires:

        (1) There be a significant departure from accepted practices of the relevant
        research community; and (2) The research misconduct be committed
        intentionally, or knowingly, or recklessly; and (3) the allegation be proven by a
        preponderance of the evidence. [45 C.F.R. § 689.2(c)]

                                                      The Act

Through the Subject's admission and the Institution's Report, we determined the Subject copied
verbatim text, totaling 77 lines and 6 figures 18 with 13 embedded citations 19 into two unfunded
NSF proposals, without proper attribution. Three of the seven source documents do not appear
as references in the relevant proposa1.20 The total amount of copied material represents about
two pages of text. We also note the subject admitted that some of the copied text in proposal 1
was also used in a previous NSF proposal.




(Tab C, Institution's Integrity of Research Policy and Procedures, Section C6.3.3).
16 Tab E
17 Tab E, Subject's emails and letter.
18 Proposal 2.
19 Proposal 1 contains 13 embedded citations, citations that appear copied along with the text. In addition, these 13
citations appear in no other section of the proposaL
20 Proposal 1: Reference for Source Document F does not appear in the reference section of the proposaL Proposal
2: References or Source Documents C and D do not appear in the reference section of the proposaL


                                                          4
Q)NFIDENTIAL                                                                        Q)NFIDENTIAL



     Proposal    Number ofLines       Number ofEmbedded                      Figures
                                        Citations used only
                                      within Plaf(iarized Text
         1               33                      13                             0
        2                44                       0                             6
       Total             77                      13                             6



During the institutional inquiry, the Subject indicated to our office that he "overlooked the most
important issue of proper citation of references,,21 because ofthe pressure of submission
deadlines. He initially stated he had asked for help from students and post docs to draft the
technical and background portions of the proposals. However, he later recanted his story and
admitted that he was solely responsible for the contents of the proposal.

The inquiry committee determined that the subject's actions were clearly culpable and we
conclude that the subject acted with knowing intent when he copied text into his proposal.

                                        Standard o{Proo{

Based on our review and the report ofthe Institution's Committee, we concluded, by a
preponderance ofthe evidence standard, that the Subject copied text, figures, and citations into
his proposaIs"without appropriately distinguishing these materials from his own work. OIG
concludes that the Subject's behavior deviates from accepted practices.z2

The preponderance ofthe evidence supports the conclusion that the Subjects knowingly copied
text into an NSF proposal. Accordingly, OIG concludes that the Subject's actions constitute
plagiarism and therefore research misconduct.

                                OIG Recommended Disposition

When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:

        (1) How serious the misconduct was; (2) The degree to which the misconduct was
        knowing, intentional, or reckless; (3) Whether it was an isolated event or part of a
        pattern; (4) Whether it had a significant impact on the research record, research
        Subjects; other researchers, institutions or the public welfare; and,(5) other
        relevant circumstances. [45 C.F.R. §689.3(b)]




                                                 5
CoNFIDENTIAL                                                                                        CoNFIDENTIAL


                                                    Seriousness

Plagiarism strikes at the very heart of research integrity and is an unacceptable practice within
the research community. In addition,

        NSF expects strict adherence to the rules of proper scholarship and attribution.
        The responsibility for proper attribution and citation rests with authors of a
        proposal; all parts of the proposal should be prepared with equal care for this
        concern. Serious failure to adhere to such standards can result in findings of
        research misconduct. NSF policies and rules on misconduct in science and
        engineering are discussed in Grant Policy Manual (GPM) Section 930 as well as
        in 45 C.F.R. Part 689. [GPG section LB. (10/2003)]

The Subject's actions are a violation of the standards of scholarship long established by NSF?3
The extent of the plagiarism is significant, as is the Subject's failure to reference three ofthe
seven source documents in his proposals.

                                                 Degree orIntent

The Subject received his doctorate at an accredited University in the U.S., worked for 2 years as
a Postdoctoral fellow at another US accredited University, and has no been a faculty member at
his current institution for six years,z4 Over the past six years, the Subject has submitted over ten
proposals as the PI to NSF. Therefore, he could reasonably be expected to have background in
U.S. research citation practices. Based on our review of the evidence, his self-professed
understanding ofNSF expectations and his experience writing and submitting NSF proposals, we
conclude the Subject's actions were distinctly knowing.

                                                      Pattern

The Subject submitted two proposals to NSF that contained plagiarized text. In addition, the
Subject admitted to submitting a third earlier proposal to NSF that also contained some copied



23 As early as 1976, in the Grantsfor SCientific Research, (NSF application guide for principal investigators) NSF
instructed proposal submitters that "A proposal should be self-contained and written with the care and thoroughness
accorded papers prepared for publication." NSF76-38, page 2. Since that time, that concept has appeared and been
expanded upon in each successive iteration of this guide. The current Grant Proposal Guide states that the proposal
"should be prepared with the care and thoroughness of a paper submitted for publication ... NSF expects strict
adherence to the rules of proper scholarship and attribution. The responsibility for proper scholarship and attribution
rests with the authors of the proposal; all parts of the proposal should be prepared with equal care for this concern.
Authors other than the PI (or co-PI) should be named and acknowledged. Serious failures to adhere to such
standards can result in findings of research misconduct. NSF polices and rules on research misconduct are discussed
in the AAG                   as well as 45 C.F.R. Part 689." NSF 10-01 Grant             Guide I.E.3.
24 Subject




                                                          6
CONADENTIAL 	                                                                             CONADENTIAL


materials. The subject's practice of plagiarizing text into multiple proposals was part of a pattern
of behavior.

                                       Impact on the research record

Because the proposals were not funded, there is no evidence of any significant impact on the
research record as a result of the plagiarism in the proposals the Subject submitted to NSF.

                                              Recommendations

Based on the evidence, OIG recommends that NSF:

        • 	 Send a letter of reprimand to the Subject informing him that NSF has made a finding
            of research misconduct;25

        • 	 Require the Subject to certify that proposals he submits to NSF do not contain
            plagiarized, falsified, or fabricated material for 2 years;26

        • 	 Require the Subject to submit assurances by a responsible official of his employer
            that any proposals submitted by the Subject to NSF do not contain plagiarized,
            falsified, or fabricated material for 2 years;27

        • 	 Direct the Subject to attend a course in research ethics within 1 year of the final
            disposition of the case and certify to NSF's OIG that he has done SO.28

The Subject's certifications and proof of an ethics course should be sent to the Associate
Inspector General for Investigations for retention in OIG's confidential file on this matter.




25 This is a Group I actions, 45 C.F.R. §689.3(a)(l)
26 This is equivalent to a Group I action 45 C.F.R. §689.3(a)(l)
27 Assurance of compliance is a Group I action 45 C.F.R. (45 C.F.R. § 689.3(a)(I)(iii».
28 This is equivalent to a Group I action 45 C.F.R. §689.3(a)(1).




                                                         7
